Office of Inspector General

January 28, 2014

The Honorable Sylvia Mathews Burwell, Director
Office of Management and Budget
725 17th Street, NW
Washington, DC 20503

SUBJECT:             Fiscal Year 2013 Report on the United States African Development Foundation’s
                     Implementation of Audit Recommendations Relating to Travel and
                     Purchase Cards

Dear Director Burwell:

This is the U.S. Agency for International Development Office of Inspector General’s (OIG’s)
first annual report on the United States African Development Foundation’s (USADF’s)
implementation of audit recommendations relating to travel and purchase cards, required under
the Government Charge Card Abuse Prevention Act of 2012 (Public Law 112-194). The Office
of Management and Budget (OMB) provided guidance for interpreting the law’s requirements in
OMB Memorandum M-13-21, “Implementation of the Government Charge Card Abuse
Prevention Act of 2012.” OMB directed that executive agency OIGs report annually on the
implementation of recommendations concerning purchase and travel cards, including both open
recommendations and those closed during the prior fiscal year.

A thorough search of OIG audit recommendations relating to USADF’s travel or purchase card
(including convenience check) programs did not reveal any open recommendations or any that
were closed in fiscal year 2013.


                                                        Sincerely,
                                                        /s/
                                                        Michael Carroll
                                                        Acting Inspector General




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://oig.usaid.gov
